v.

(Respondent)

Tokyo Electric Power Company Holdings, Inc.

20-730

F Mr.

❑ Ms.

David J. Weiner
❑ Mrs.

Email

Zip

20001
david.weiner@arnoldporter.com

El Miss

CC: Howard Moore Jr., John R. Edwards, Charles Bonner, Paul C. Garner

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

942-5000

Washington, DC
Phone (202)

City & State

601 Massachusetts Ave., NW

Arnold & Porter Kaye Scholer LLP
Address

Firm

(Type or print) Name

El I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
r
ll '7
Signature
I
Date. December 2, 2020

El I am a member of the Bar of the Supreme Court of the United States.

General Electric Company

El There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

El Please enter my appearance as Counsel of Record for all respondents.

Please check the appropriate boxes:

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.

(Petitioner)

Lindsey R. Cooper

Supreme Court Case No

SUPREME COURT OF THE UNITED STATES

WAIVER

